Memorandum from the Office of the Inspector General



May 24, 2010

Robert J. Fisher, LP 3K-C

REQUEST FOR FINAL ACTION – AUDIT 2009-12291-03 – REVIEW OF POSTPONED
AND CANCELLED CAPITAL PROJECTS – FOSSIL GENERATION



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us within one year from the date of this
memorandum when final action is complete.

If you have any questions, please contact Amy R. Rush, Senior Auditor, at (865) 633-7361
or Lisa H. Hammer, Director, Financial and Operational Audits, at (865) 633-7342. We
appreciate the courtesy and cooperation received from your staff during the audit.



Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:JP
Attachment
cc (Attachment):
      Donald P. Cahill, LP 2P-C
      Peyton T. Hairston, Jr., WT 7B-K
      David R. Halicks, LP 2P-C
      Tom D. Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Scott D. Self, MR 6D-C
      Joyce L. Shaffer, WT 9B-K
      John M. Thomas III, MR 3S 120
      Robert B. Wells, WT 9B-K
      OIG File No. 2009-12291-03
 


        
 


                                     Audit Report
 
Office
      of the Inspector General                                   

                                 To the Senior Vice President, 
                                 Fossil Generation
                                                                 

 

 

 

 

REVIEW OF
 

 
POSTPONED AND
 


CANCELLED CAPITAL
 




PROJECTS – FOSSIL
GENERATION
 




 

 
 
 

 Audit Team                                   Audit 2009-12291-03
Amy R. Rush                                          May 24, 2010
Stephanie M. Broome
Jamie M. Wykle
Office of the Inspector General                                                                Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 3

FINDINGS AND RECOMMENDATIONS ................................................... 3

   APPROVAL OF PROJECTS ............................................................................ 4

   COMMUNICATION OF PROJECT STATUS ....................................................5

   MONITORING OF PROJECTS ........................................................................ 6

RECOMMENDATIONS .................................................................................. 7

MANAGEMENT'S COMMENTS AND OUR EVALUATION................... 7




Audit 2009-12291-03
Office of the Inspector General                                           Audit Report


EXECUTIVE SUMMARY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling fossil capital projects. Our audit objective was to determine whether
fiscal years 2007 and 2008 project postponements and cancellations were
properly approved, effectively communicated, and monitored to prevent
inappropriate charges.

Our review specifically focused on the processes for Nuclear Power Group,
Power System Operations, Fossil Generation (FG), and River Operations. Due
to the unique aspects of each of these organizations, we will issue a separate
report on each organization. This report addresses the process for FG.

Based on our review, we determined that FG projects were approved by the
appropriate levels of authority and contained a capital classification designated
by Fixed Asset Accounting (FAA). We noted that 15 FG-cancelled projects
contained a cancellation date occurring prior to Strategic Business Unit approval
for cancellation which project management stated could be attributed to timing
issues. In addition, we identified eight projects in which travel costs were split
among projects. Although there is no policy governing the splitting of project
costs, according to project management personnel, the dollar amount of costs
allocated among projects would not be material. We also determined that
Business Services is responsible for performing an independent review of project
costs for reasonableness.

However, we determined there were control weaknesses that could allow
business units to manipulate project costs in order to meet budget goals.
Specifically, communication and monitoring controls were not adequately
designed to mitigate the risk that project costs were (1) accurately and timely
communicated for recording on the financial statements and (2) appropriately
classified as capital costs rather than operations and maintenance costs. We
determined:

   Communication by FG to FAA of project cancellation did not occur for 7 of the
    24 cancelled projects we reviewed.
   Communication by FG to FAA of an additional 4 of the 24 cancelled projects
    we reviewed did not occur within the required time frame.
   Project documentation (1) was not updated with changes in project status as
    required for 4 of the 23 postponed and 3 of the 24 cancelled projects and
    (2) did not include a detailed reason for the postponement of 1 of the
    23 postponed projects and 11 of the 24 cancelled projects.
   Several FG project cancellations occurred due to identification of a duplicate
    scope within other projects.



Audit 2009-12291-03                                                            Page i
Office of the Inspector General                                          Audit Report


We recommended the Senior Vice President (SVP), FG, in conjunction with other
organizations:

   Develop and implement a process for approving project cancellations prior to
    their communication to FAA and Business Services.
   Establish a process for ensuring that project plans are updated with the
    project status when cancelled or postponed as required by Standard
    Programs and Processes 2.1.
   Develop and implement criteria related to project cancellations including
    (1) time requirements for communication of project cancellations to FAA and
    Business Services and (2) monitoring requirements to ensure that all
    cancelled project costs are written off.
   Develop and implement a process for (1) reviewing projects to verify that
    scopes are not duplicated to ensure proper allocation of budgeted resources
    and (2) documenting reasons for project cancellations.

The SVP, FG, responded to a draft of our report and agreed with our
recommendations. The SVP, FG, also provided planned actions to address
those recommendations. We concur with FG management's planned actions.




Audit 2009-12291-03                                                            Page ii
Office of the Inspector General                                                               Audit Report


BACKGROUND
Each year, the Tennessee Valley Authority (TVA) initiates a wide variety of
capital and operations and maintenance (O&M) projects. In that regard, TVA's
project justification process is designed to ensure that such projects are aligned
with TVA's vision, goals, and strategic plan objectives. As defined by TVA's
Standard Programs and Processes (SPP) 2.1: Project Justification Process,1 the
process consists of identifying project initiatives, coordinating and completing
project reviews, receiving funding, approving projects, and executing projects
which include project postponement, cancellation, and closure. Projects are
initiated, owned, managed, and executed by the respective Strategic Business
Unit (SBU).

According to TVA's Capitalization policy, projects are classified as capital if they
result in the creation of new assets, the replacement of existing assets, or the
removal of existing assets. Projects are considered O&M if they repair, restore,
test, inspect, or assess existing assets. In addition, any capital project that is
cancelled should be reclassified as an O&M project and project costs expensed.
Fixed Asset Accounting (FAA) personnel are responsible for determining the
proper accounting classification for all projects under consideration for
capitalization.

Capital projects greater than $250,000 are required to be entered as stand-alone
projects in the Project Justification System (PJS), which serves as the official
database containing project data and project approval status.2 Depending on the
cost and type of the project, there can be multiple levels of project approval.
Projects less than or equal to $250,000 are grouped together and entered into
PJS as a "bucket." Projects are classified as one of three categories:

   Strategic – Projects initiated or sanctioned by the Board or management with
    costs greater than $8 million.
   Base – Projects specific to an SBU to maintain its mission with costs less
    than or equal to $8 million.
   Discretionary – Projects classified as Economic/Revenue, Capacity Growth,
    and Reimbursable.

Occasionally, projects may require a revision to change the project scope or
priority and may need to be suspended, accelerated, or deferred.3 When such a
change occurs, the respective SBU must ensure the project change process is
followed and adequately documented. Specifically, the SBU is required to

1
  During the review, SPP-2.1 was being revised to update the project authorization matrix. We used the
  latest approved revision for this testing.
2
  According to the Chief Financial Officer (CFO) personnel, PJS is a stand-alone application and is not
  linked to the general ledger application.
3
  According to CFO personnel, project postponements or deferrals include projects where the in-service
  date (ISD) has been extended past the original planned ISD. During the period of postponement, costs
  may still be incurred, and work may still be performed on the project.
Audit 2009-12291-03                                                                                  Page 1
Office of the Inspector General                                                                 Audit Report


(1) initiate a revised Project Justification (PJ) Form with an explanation for the
change and identification of the impacts on the project cost, schedule, scope,
and/or benefits, (2) coordinate appropriate reviews for revisions to projects, and
(3) update the Five-Year Project Plan.4

Depending on the project cost, projects are required to have various levels of
approval. Fossil Generation (FG) has a Project Approval Board (PAB) which is
responsible for reviewing and approving projects and project revisions.
According to FPG.SPP.02.002, the PAB consists of the FG Senior Vice President
(SVP), the Site General Manager, Project Development Manager, and the Site
System Engineer. The PAB is responsible for reviewing, evaluating, approving,
and tracking projects implemented at or for fossil-owned or -controlled assets
within established spending limits.

Once FG projects are approved, a project engineer or project manager is
responsible for developing, coordinating, monitoring, and ensuring completion of
the project. A Project Control Specialist (PCS) is responsible for assisting the
project manager with project documentation and tracking.

We determined there were a total of 589 postponed capital projects and
87 cancelled capital projects in fiscal years (FY) 2007 and 2008. Of those totals,
FG had 232 postponed and 79 cancelled projects (see Table 1). As of FY 2008,
FG projects deemed as postponed had a total requested budget and total
expenditures of approximately $2.5 billion and $404 million, respectively.
FG-cancelled projects had a total requested budget of $744 million and total
expenditures as of September 2008 of approximately $976,500 that had not been
written off.5

                                            Postponed Projects           Cancelled Projects
                Fossil Generation                     232                          79
             Nuclear Power Group                       80                           3
                  Power Supply
                                                      233 4
                   Operations
                River Operations                       32 1
                       Other                           12 0
                                   Total              589                          87
                                                                                          Table 1




4
  The Five-Year Project Plan is a "living" document comprising the current list of projects maintained as the
  SBU's funded and prioritized projects currently being implemented or planning to be implemented.
5
  Requested budget totals were obtained from PJS project documentation, and expenditures were obtained
  from FAA. These totals do not include "bucket" projects.
Audit 2009-12291-03                                                                                    Page 2
Office of the Inspector General                                                                    Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
As part of our annual audit plan, we reviewed the process for postponing and
cancelling capital projects. Our audit objective was to determine whether
FYs 2007 and 2008 project postponements and cancellations were properly
approved, effectively communicated, and monitored to prevent inappropriate
charges. Our review specifically focused on the processes for Nuclear Power
Group, Power System Operations, FG, and River Operations. Due to the unique
aspects of each of these organizations, we will issue a separate report on each
organization. This report addresses the process for FG. To achieve our
objective, we:

   Reviewed relevant policies and procedures governing the approval,
    communication, and monitoring of FG capital projects, including SPP-2.1:
    Project Justification Process and FPG.SPP.02.002: Projects Process.
   Interviewed FG project management including PCS personnel, the Project
    Finance Specialist responsible for the PJS, FG Controller personnel, and FAA
    personnel.
   Identified 232 postponed6 and 79 cancelled FG projects in FYs 2007 and
    2008.
   Selected a statistical sample7 of 23 postponed projects and 24 cancelled FG
    projects.
   Obtained and reviewed project documentation including PJ forms, Five-Year
    Project Plans, Capital Reporting Summaries, and year-to-date cost
    information.
   Attended an FG PAB meeting as well as a Chief Operating Officer monthly
    meeting to observe the project review and approval process.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Although we did not test
for compliance with laws and regulations, nothing came to our attention during
the audit that indicated noncompliance with laws and regulations.


FINDINGS AND RECOMMENDATIONS
We determined all sampled capital projects reviewed were approved by the
appropriate levels of authority and contained a capital classification designated

6
  Postponed projects are defined as projects having an in-service date deferred to a later date.
7
  For projects selected in the samples, we reviewed all revisions within scope for the project.
Audit 2009-12291-03                                                                                     Page 3
Office of the Inspector General                                                             Audit Report


by FAA. We also noted that 15 of the 24 FG-cancelled projects we reviewed
contained a cancellation date occurring prior to SBU approval for cancellation,
which project management stated could be attributed to timing issues. In
addition, we identified eight projects in which travel costs were split among
projects. There is no policy governing the splitting of project costs; however,
according to project management personnel, the dollar amount of costs allocated
among projects would not be material. We also determined that Business
Services is responsible for performing an independent review of project costs for
reasonableness.

However, we determined there were control weaknesses that could allow
business units to manipulate project costs in order to meet budget goals.
Specifically, communication and monitoring controls were not adequately
designed to mitigate the risk that project costs were (1) accurately and timely
communicated for recording on the financial statements and (2) appropriately
classified as capital costs rather than O&M costs. We determined:

   Communication by FG to FAA of project cancellation did not occur for 7 of the
    24 cancelled projects we reviewed.
   Communication by FG to FAA of an additional 4 of the 24 cancelled projects
    we reviewed did not occur within the required time frame.
   Project documentation (1) was not updated with changes in project status as
    required for 4 of the 23 postponed and 3 of the 24 cancelled projects and
    (2) did not include a detailed reason for the postponement of 1 of the
    23 postponed projects and 11 of the 24 cancelled projects.
   Several FG project cancellations occurred due to identification of a duplicate
    scope within other projects.

APPROVAL OF PROJECTS
According to TVA's SPP-2.1: Project Justification Process, each SBU is required
to obtain approval as defined in the Project Authorization Matrix for funded
projects and project revisions meeting certain criteria. Project approval is
required to be documented on the PJ form. We selected a sample of
23 postponed and 24 cancelled projects and reviewed the PJS documentation for
each project. We verified that all sampled projects contained a capital
classification designated by FAA and were approved by the appropriate
groups/individuals in accordance with SPP-2.1.8

In addition, we noted that 15 FG-cancelled projects had cancellation dates
occurring prior to the SBU approval for cancellation and the Project Management
Council cancellation approval date. Project management personnel stated that
these could be attributed to timing issues.
8
  We did not test the accuracy of FAA's classification during this review. We relied on procedures
  performed in OIG Audit 2009-12429; where no exceptions were identified in our testing of FAA financial
  reporting controls related to the capital classification of projects.
Audit 2009-12291-03                                                                                Page 4
Office of the Inspector General                                         Audit Report


COMMUNICATION OF PROJECT STATUS
To facilitate project tracking, project status must be communicated by FG project
management to FAA, Business Services, and internal project personnel.
Specifically, projects having a cancelled status should be communicated to FAA
and Business Services to ensure accuracy and timeliness of financial reporting.
Cancelled projects, as well as projects having a postponed status, are required to
be communicated within the organization to better facilitate project management.
According to FAA process documentation and the Controller's Web site,
communication of project status to FAA includes the submission of Form 4013:
Capital Projects Completion/Cancellation Notice for projects which are cancelled.
Project cancellation status must also be submitted to Business Services since
that organization is currently responsible for writing off project costs.
Requirements for communicating this information to FAA and/or Business
Services are included in FPG.SPP.02.002: Projects Process; however, the
requirements are not specified in SPP-2.1. Communication of FG project status
within the organization occurs informally and includes communication during the
PAB meeting. In addition, project status is required by SPP-2.1 to be updated on
the Five-Year Project Plan.

Communication to FAA and Business Services
We requested project communication from FAA for the 24 sampled cancelled
projects and determined that 7 FG projects were not communicated to FAA. In
addition, we determined that communication to FAA of project cancellations was
not timely for 4 of the 24 FG projects sampled. According to FAA, Form 4013 is
required to be submitted to FAA no later than ten business days after the
cancellation date. However, we noted that Form 4013 was sent to FAA
approximately one year to one and one-half years after the cancellation date. In
addition, we verified that two projects, one of which had Form 4013 sent to FAA,
had not been written off as of September 2008 and had costs totaling
approximately $260,000. According to FAA personnel, there have been
instances in which a business unit submitted Form 4013 and documented that
costs have been expensed. However, FAA has subsequently found that, in
some cases, the costs were not expensed.

Communication Within FG
We obtained and reviewed the FG Five-Year Project Plans and determined that
four postponed FG projects and three FG-cancelled projects were not updated
on the Five-Year Project Plan. Specifically, we noted that (1) four postponed
projects were not included on the Five-Year Project Plan, and (2) three
FG-cancelled projects were included on the Five-Year Project Plan but were not
marked as cancelled.

Based on discussions with project personnel and the review of project
documentation, we determined that 22 of the 23 sampled postponed projects had
been postponed for valid reasons. We were unable to determine whether one
FG postponement was reasonable because the project documentation did not
include a detailed reason for postponing the project. In addition, we noted the
Audit 2009-12291-03                                                          Page 5
Office of the Inspector General                                                               Audit Report


project scope as well as the project budget decreased. We determined that all
24 sampled cancelled projects were cancelled for valid reasons. However, we
noted that project documentation for 11 projects did not include a detailed reason
for the cancellation, and three projects were cancelled as a result of being a
duplicate of another project or the project scope was included as part of another
project.

MONITORING OF PROJECTS
According to TVA's Capitalization policy, FAA is responsible for determining the
proper accounting classification for all projects under consideration for
capitalization. According to FAA personnel, the project classification allows the
SBU to charge appropriate costs related to the project as either capital or O&M,
depending on the project classification. Specifically, if a project is designated as
"capital" by FAA, it is the responsibility of the project manager to ensure only
capital-type costs9 are capitalized. Similarly, only noncapital costs should be
charged to O&M. Any capital project that is cancelled should be reclassified as
an O&M project and project costs expensed.

We determined through interviews and policy reviews that a PCS assists the
project manager with the cost control of projects. According to FG project
personnel, there is inconsistency among the organizations regarding the review
of project details and costs. We reviewed a selection of capital costs for the
sampled postponed FG and projects and determined that costs appeared to be
correctly classified as capital costs. As discussed above, we also determined
that two of the sampled FG-cancelled projects had project costs totaling
approximately $260,000 which had not been written off as of September 2008.

During the review of project costs, we identified eight FG projects in which travel
costs were split among projects. According to FG project personnel, there is no
policy governing the splitting of project costs. However, according to FG project
management personnel, the dollar amount of costs allocated among projects
would not be material enough to manipulate budget goals. In addition, we
determined that Business Services is responsible for performing an independent
review of project costs. Specifically, Business Services personnel are
responsible for reviewing month-to-date and year-to-date variance reports for
reasonableness. 




9
  Capital costs are costs incurred on the purchase of land, buildings, construction, and equipment needed
  to bring a project to a commercially operable status.
Audit 2009-12291-03                                                                                  Page 6
Office of the Inspector General                                            Audit Report


RECOMMENDATIONS
We recommended the SVP, FG, in conjunction with other organizations:

   Develop and implement a process for approving project cancellations prior to
    their communication to FAA and Business Services.
   Establish a process for ensuring that project plans are updated with the
    project status when cancelled or postponed as required by SPP-2.1.
   Develop and implement criteria related to project cancellations including
    (1) time requirements for communication of project cancellations to FAA and
    Business Services and (2) monitoring requirements to ensure that all
    cancelled project costs are written off.
   Develop and implement a process for (1) reviewing projects to verify that
    scopes are not duplicated to ensure proper allocation of budgeted resources
    and (2) documenting reasons for project cancellations.


MANAGEMENT'S COMMENTS AND OUR EVALUATION
FG's SVP responded to our report on May 18, 2010 (please see the Appendix).
Based on the response, the following actions will be taken by FG consistent with
our recommendations:

 Procedure FPG.SPP.02.002 will be revised to explicitly state the
   requirements for approving project cancellations prior to their communication
   to Financial Shared Services (FSS). On an interim basis, FG project
   management has issued a process work flow instruction.
   Procedure FPG.SPP.02.002 will be revised to more explicitly state the
    requirements for updating project plans when appropriate.
   FSS will develop a new procedure, FSS-SPP-13.11.1 (capitalization process),
    which will provide project cancellation criteria, including time requirements for
    communicating with FAA and Business Services.
   Procedure FPG.SPP.02.002 will be revised to include requirements for (1) a
    review of changes to verify scopes are not duplicated in the project plan and
    (2) documentation of the reason for project cancellation.

We concur with FG management's planned actions.




Audit 2009-12291-03                                                             Page 7
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
